<html>
<title> - CHALLENGES TO RELIGIOUS FREEDOM IN THE AMERICAS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                    CHALLENGES TO RELIGIOUS FREEDOM 
                            IN THE AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2015

                               __________

                           Serial No. 114-96

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                    ______________       
                            
                            
                          U.S. GOVERNMENT PUBLISHING OFFICE
96-148PDF                          WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                           
                            
                            
                            
                       
                       

                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, MinnesotaUntil 
DANIEL DONOVAN, New York
   

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
TOM EMMER, MinnesotaUntil
DANIEL DONOVAN, New York





    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Anna-Lee Stangl, senior advocacy office for the Americas, 
  Christian Solidarity Worldwide--UK.............................     5
Mr. Dennis P. Petri, research coordinator for Latin America, 
  associate director, World Watch Research, Open Doors 
  International..................................................    11
Mr. Richard Coll, foreign policy advisor for Latin America and 
  Global Trade, Office of International Justice and Peace, United 
  States Conference of Catholic Bishops..........................    26
Mr. Ricardo Luna, global vice president, Confraternidad 
  Evangelica Latina..............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Anna-Lee Stangl: Prepared statement..........................     8
Mr. Dennis P. Petri: Prepared statement..........................    13
Mr. Richard Coll: Prepared statement.............................    29

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Mr. Ricardo Luna: Prepared statement submitted after the hearing.    56
The Honorable Alan S. Lowenthal, a Representative in Congress 
  from the State of California: Prepared statement...............    79
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Material submitted for the record..........    81


            CHALLENGES TO RELIGIOUS FREEDOM IN THE AMERICAS

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2200 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. We will go ahead and call the subcommittee 
meeting to order. And we are waiting on one witness, which we 
will go ahead and get started. We will be interrupted by 
votes--2:20, 2:40--and we will have to recess at that point in 
time but we will deal with it.
    Before I read my opening statement, let me just take this 
opportunity to let the folks in Chile know that we are thinking 
about them and they are in our prayers with the earthquake and 
tsunami flooding and other issues they have experienced this 
year, but last night with the very strong earthquake that 
happened off the coast and the resulting tsunami-type waves. 
And I don't know that the Pacific Rim is out of the woods yet 
with regard to tsunamis, so they will continue to be in our 
thoughts and prayers.
    So a quorum being present, the subcommittee will come to 
order and I will now recognize myself for an opening statement.
    Religious freedom was a major inspiration for the founding 
of the early American republic, revered by our founding fathers 
and recognized in the First Amendment of the U.S. Constitution 
as a fundamental right.
    And I will pause and say that today is Constitution Day. 
Happy Constitution Day. 1787, the Constitution was ratified 
with the promise that the first ten amendments would be added 
as the Bill of Rights, and so we recognize and celebrate that 
today.
    It has also been repeatedly recognized internationally. The 
first U.S. President, George Washington, affirmed in his 1796 
farewell address that ``of all the dispositions and habits 
which lead to political prosperity, religion and morality are 
indispensable supports.'' This view enjoyed continued support 
in the nineteenth century with a de Tocqueville writing that 
``religion in America...must be regarded as the first of their 
political institutions; for if it does not impart a taste for 
freedom, it facilitates the use of it.''
    Indeed, religious liberty provided the foundation for our 
country's modern political order, respect for democracy, and 
rule of law. Similarly, the ability to worship and exercise 
one's faith without fear of attack, censure, bribery, or 
government reprisal is one of the most important metrics of 
freedom in any country.
    Today, we meet to examine the state of religious freedom in 
the Western Hemisphere, home to Catholic, Protestant, Jewish, 
and Muslim faiths as well as a range of indigenous beliefs. In 
particular, as Latin America contains nearly half of the 
world's Catholics and the first Latin American Pope is set to 
address Congress next week, I believe this hearing is timely in 
bringing public awareness to the importance of international 
freedom.
    While religious minorities in Latin America and the 
Caribbean do not experience the same level of persecution they 
face elsewhere in the world, i.e., ISIS and the Middle East, 
the state of religious freedom in our own hemisphere does 
deserve our attention. Unfortunately, this year has seen a 
noticeable uptick in violations of religious freedoms in 
several countries in the region.
    While most governments have constitutions with clauses that 
protect religious freedom, the implementation of those 
protections is often not rigorously enforced, and in certain 
countries other laws or regulations have been written that make 
religious worship and activities hard. For instance, in 
countries such as Bolivia, Cuba, Ecuador, Nicaragua, and 
Venezuela, it is government action itself that contributes 
directly to difficulties in religious practice.
    In other countries such as Argentina, Mexico, and Colombia, 
the combination of criminal groups, lawless environment, or 
impunity prevents the free exercise of religious worship and 
activities. In particular, this subcommittee has heard multiple 
reports of Catholic and Protestant churches being forced to pay 
fines to criminal groups in the region in order to remain open, 
church members have been threatened and internally displaced in 
some cases, and pastors have faced extortion and assassination 
attempts.
    Significantly, churches that engage in outreach and 
assistance to victims of human trafficking, drug and alcohol 
addicts, or former members of criminal groups have found 
themselves targets of criminal groups which see church efforts 
as a threat to their own control, objectives, or activities. 
Furthermore, many countries in Latin America require government 
registration of churches, and in the cases of Bolivia and Peru 
this registration can be cumbersome, intrusive, or just plain 
difficult.
    So I am deeply concerned about Bolivia's Law 351, passed in 
2013, which forces all religious organizations to reapply for 
legal standing while imposing burdensome preconditions that 
appear restrictive to the rights of religious organizations. 
Moreover, in Nicaragua reports surfaced in July 2013 that 
President Ortega was exploiting religious symbols for political 
gain and using financial pressure on Catholic and Protestant 
groups to exert political influence.
    Similarly, in Ecuador there have been reports of action by 
the Ecuadoran Government to remove all religious images from 
regional hospitals and obstruct the work of Catholic priests in 
prisons.
    Given the hearing that this subcommittee held in July on 
threats to press freedoms in the Americas and President 
Correa's actions last week to shut down Fundamedios, an 
organization with a critical mission to provide information on 
freedom of expression in Ecuador, I am troubled at what might 
be next for religious organizations in Ecuador who dare to 
diverge from Correa's views.
    So in June 2014, I sent a letter to the Ambassador of 
Mexico highlighting two cases of religious freedom violations 
and requesting that Mexico prioritize accountability for 
perpetrators who commit violent crimes under the guise of 
religion. I would like to commend Mexico's actions in taking 
steps to address some of these issues while acknowledging that 
more work still remains.
    Given the security environment in Mexico, the Catholic 
Multimedia Center reported last December that Mexico is the 
most dangerous country in the world to be a Catholic priest, 
and 80 percent of cases involving attacks on priests in Mexico 
are not resolved. Further, while Mexico's constitution 
guarantees freedom of religion, an abuse of Mexico's law of 
uses and customs has led to widespread cases of religious 
intolerance which remain unaddressed today.
    Furthermore, in Colombia, various NGOs are reporting an 
increase in violence toward religious organizations by criminal 
paramilitary groups given the internal armed conflict and 
Colombia-FARC peace talks. Allegedly, this violence has 
included poisoning, burning of houses and the closing of about 
20 churches, torture, killings, and kidnapping of children for 
use as child soldiers.
    In contrast, in Cuba, the persecution of religious 
organizations have been driven by the government. Although its 
constitution guarantees freedom of religion, it has a caveat 
that this can be restricted if it does not align with the 
socialist objectives. Today, Cuban Government continues to 
severely restrict religious liberty. Churches must be 
registered in order to import religious material, meet in 
houses authorized for worship, or travel abroad for religious 
purposes. No Protestant religious schools are allowed and the 
Jehovah's Witness' and Mormons have yet to receive recognition 
by the government.
    Last year, two pastors were arrested and detained by the 
police, and early this year the government began enforcing 
Legal Decree 322 to seize churches, church properties, and in 
May, the property of Maranatha First Baptist Church was 
confiscated. Cuban authorities also continue their brutality 
against religious worshippers, often violently dragging out 
women affiliated with the Ladies in White group from Sunday 
morning services.
    In conclusion, there are many disturbing reports of 
religious freedom violations in our own hemisphere and this 
does not bode well for the health of these countries for 
religious freedom is utterly critical to the protection and 
development of free societies. As historian Russell Kirk has 
written, ``all the aspects of any civilization arise out of the 
people's religion: Its politics, its economics, its arts, its 
sciences, even its simple crafts are the by-product of 
religious insights.'' Consequently, countries that respect 
religious freedom allow all of these aspects of their cultures 
to flourish while those that fail to protect religious freedom 
will not see these benefits.
    I look forward to hearing from our expert witnesses today 
on how they rate the Obama administration's priority of 
religious freedom in the Western Hemisphere and how and what 
the U.S. can engage with the countries in the region to support 
religious freedom. So it should be a very lively hearing, and 
again I apologize that we will be interrupted. But I will now 
yield to the ranking member Mr. Sires from New Jersey for an 
opening statement.
    Mr. Sires. Thank you, Mr. Chairman. I would like to join 
you in the words about Chile. It is very difficult to think in 
living in a country that is constantly receiving earthquakes 
and in such a little country and we certainly pray for the 
people in that country. And I want to thank you, Mr. Chairman, 
for convening this hearing and thank you to our witnesses for 
being here today.
    Today we are here to examine challenges to religious 
freedom in the Americas. While the Western Hemisphere has long 
enjoyed considerable freedom to practice religion compared to 
other regions in the world, it is important to remain vigilant 
and pay attention to troubling trends that may be on the 
horizon. While leaders like Maduro, Castro, and Correa continue 
to undermine democratic principles, we must do our part to 
ensure our faith-based communities are able to live free from 
persecution.
    In Mexico, priests are under constant pressure and threat 
from drug cartels trying to extort money from the church. 
Additionally, there has been a concerning rise in violence 
against Protestants and indigenous communities in Mexico. While 
the culture of impunity in Mexico is strong, we must work to 
ensure those targeted faith-based communities aim at doing good 
in their neighborhoods.
    And in Argentina there has been a track record of anti-
Semitism with the still unsolved 1994 AMIA bombing in Buenos 
Aires that killed 85 people. The Cuban regime does not spare 
religious groups while exercising its total control over the 
island. They actively monitor and limit religious practices 
through government authorized surveillance and harassment.
    And I would like to stop here for a minute, because what I 
was looking at, Chairman, before, was a very disturbing video 
that I received recently where the priest was chasing away from 
the church a Ladies in White and called her a mercenary and 
that she could not come into that church. To me, being a 
Catholic, that is very disturbing. The church has a history of 
being a sanctuary for people through its history and I cannot 
understand why a priest would chase someone away from the 
church. To me it is just very disturbing.
    And I will finish my--when the Pope comes to visit the 
Western Hemisphere this month, he plans to stop in Cuba before 
heading to the United States. I hope he uses this as an 
opportunity to implore the Castro brothers to loosen their grip 
on the Cuban people who have long been oppressed for too many 
years.
    And I look forward to hearing from our panelists today as 
they examine these and other religious freedom issues in the 
region, and I thank you.
    Mr. Duncan. I will thank the ranking member. And there is 
no lighting system in here so I am going to do my best to try 
to keep up with the time, but we give them 5 minutes. Their 
biographies are in our folders. So Ms. Stangl testified earlier 
this year. Welcome back to the subcommittee and you are 
recognized for 5 minutes.

 STATEMENT OF MS. ANNA-LEE STANGL, SENIOR ADVOCACY OFFICE FOR 
        THE AMERICAS, CHRISTIAN SOLIDARITY WORLDWIDE--UK

    Ms. Stangl. Thank you so much, Mr. Chairman, and I thank 
you for holding this hearing which I think might be the first 
time a hearing like this has been held.
    A number of Latin American countries including Mexico and 
Peru have problematic legal requirements for the registration 
of religious groups. In 2013, Bolivia also adopted legislation 
requiring registration but which was expanded to exert control 
over not just religious groups but all nongovernmental 
organizations. The law was supposed to enter into force last 
month, but is not under review by the Constitutional Tribunal 
and it forces all religious organizations to re-register.
    Of most concern to religious leaders, however, is a clause 
in the new law which states that religious groups must operate 
within the parameters of ``vivir bien,'' a political ideology 
incorporating elements of indigenous spiritual beliefs and 
promoting, and this is a quote, ``alternatives to capitalism, 
to modernity, and to development.'' This clearly poses a 
problem for many religious organizations whose belief systems 
do not align with a particular ideology.
    Problematic anti-cult legislation has also cropped up in 
Bolivia's southern neighbor Argentina. CSW has regularly 
expressed concern about the adoption of anti-cult legislation 
which can be used to limit religious freedom. Such legislation 
often goes beyond targeting criminal actions to criminalizing a 
system of belief and noncriminal acts of worship. In 2013, the 
law was used unsuccessfully to target the Pueblo Grande Baptist 
Church in Rio Tercero.
    While the laws in many Latin American countries present a 
potential threat to religious freedom, a state of lawlessness 
in many countries presents an even more urgent threat. More 
Catholic priests were killed in Mexico in 2014 than in any 
other country in the world. According to the Catholic 
Multimedia Center, which has been documenting attacks on 
Catholic church leaders since 2000, criminal groups tend to see 
priests and lay leaders as promoting a way of life that goes 
contrary to the objectives of the criminal groups in their 
preaching and ministry.
    Although not as well documented, the situation for 
Protestant leaders is similar. In some cases the criminal 
groups have prohibited evangelistic work, demanded the active 
cooperation of church leaders or attempted to use the church as 
a front for money laundering or a target for extortion.
    Uniquely to Mexico, some criminal groups have incorporated 
a religious element into their ideology--the cult of Santa 
Muerte, for example--and attempted to force church leaders to 
endorse these beliefs through word or actions. Church leaders 
who refuse to comply with these demands are met with serious 
repercussions. Mexico is one example of where widespread 
criminal violence has had a chilling effect on religious 
freedom, but similar situations can be found Colombia, El 
Salvador, Honduras, Guatemala, and Argentina.
    I now want to turn to unique religious freedom situations 
in three countries which CSW consider to be a priority for 
religious freedom advocate in the region. Returning to Mexico, 
criminal violence is not the only source of religious freedom 
violation. Religious intolerance in some states manifested by 
local leaders attempting to force all inhabitants to adhere to 
the majority religion results in widespread and egregious 
violations of religious freedom. If the government does not 
intervene, as it rarely does, these situations often escalate 
to violence, including arbitrary detention, physical assault 
and expropriation or destruction of property, and end in mass 
expulsion and forced displacement.
    Moving now to Colombia. The internal conflict in this 
country which has gone on now for more than a half century has 
also had a direct impact on religious freedom. I have already 
mentioned criminal violence perpetuated in Colombia by neo-
paramilitary groups, one of which, the Black Eagles, issued 
public death threats to civil society leaders including five 
named Protestant leaders in the Atlantic Coast region earlier 
this year. The group also named all Protestant churches in the 
cities of Barranquilla and Sincelejo as military targets.
    On the other side of the conflict, leftist guerillas, the 
FARC and the ELN, have historically severely restricted 
religious freedom in areas under their influence or control. In 
some cases they have prohibited all Christian activity and 
persecuted, even killed, Christian leaders who defied these 
orders. In other cases, while not prohibiting Christian 
activity across the board, they have imposed severe 
restrictions.
    In Colombia, state actors have also been accused of 
violations of religious freedom. Despite numerous rulings by 
the Constitutional Court that the right to conscientious 
objection on religious grounds to obligatory military service 
is protected by the constitution, military forces have not 
respected this right and have forcibly inducted young men who 
hold strong religious beliefs that prohibit them from taking up 
arms.
    I conclude now with Cuba where religious organizations and 
their activities come under the authority of the Office of 
Religious Affairs of the Central Committee of the Cuban 
Communist Party. Religious groups must seek permission from 
this office for things ranging from the right to own a vehicle 
to something as simple as expanding a bathroom or repairing a 
roof. The office, in turn, uses the granting or withholding of 
these permits to manipulate religious groups.
    Church leaders of legally recognized denominations report 
harassment, discrimination and threats from government 
officials as a daily part of their ministry. Religious groups 
that do not have legal recognition are severely persecuted and 
threatened with confiscation or destruction of their property.
    Over the past 5 years, CSW has documented a continuous and 
sharp rise in religious freedom violations in Cuba. Much of 
this is rooted in the decades-long government policy of 
attempting to separate Cubans linked to human rights groups and 
pro-democracy movements from bodies of faith.
    In recent years more and more church leaders have defied 
this policy and welcome all Cubans regardless of their 
political beliefs into their churches. This has become a 
flashpoint for religious freedom violations, perhaps most 
obviously manifested in the violent arbitrary detention each 
weekend of women linked to the Ladies in White movement in 
order to prevent them from attending Sunday Mass.
    The general global perception that Latin America is a 
Christian region of the world with strong Western values has 
often led to violations of religious freedom, many of them 
serious, being overlooked. Well thought out policies by the 
United States to promote freedom of religion or belief in the 
region carried out in consultation and cooperation with civil 
society on the ground could have real potential to make a 
change. Thank you.
    [The prepared statement of Ms. Stangl follows:]
    
    
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                    ----------                              

    Mr. Duncan. Thank you. Mr. Petri, you are recognized for 5 
minutes.

  STATEMENT OF MR. DENNIS P. PETRI, RESEARCH COORDINATOR FOR 
 LATIN AMERICA, ASSOCIATE DIRECTOR, WORLD WATCH RESEARCH, OPEN 
                      DOORS INTERNATIONAL

    Mr. Petri. Thank you, Mr. Chairman. I will summarize my 
written testimony. The majority of all Latin American citizens 
is formally Christian, but actively practicing Christians, that 
is Christians who regularly attend church, are a minority, and 
this minority is specifically vulnerable to suffering human 
rights abuses. As far as the legal framework is concerned, it 
can be concluded that there are no major obstacles to religious 
freedom in the vast majority of Latin American countries, with 
the exception of Cuba. But from the perspective of human 
security, the enforcement of religious freedom poses 
challenges.
    Religious freedom in Latin America is restricted by three 
dynamics. The first is organized crime. The main feature of 
organized crime is the creation of a climate of impunity, 
anarchy and corruption, in which actively practicing Christians 
are vulnerable because their behavior, which is based on the 
biblical world view, is contrary to the greed of organized 
crime. Of course, organized crime affects societies as a whole, 
and not only Christians. But actively participating Christians 
possess a specific vulnerability for suffering human rights 
abuses.
    The targeting of Christians by criminal organizations is 
generally motivated by a combination of two elements. Firstly, 
people involved in organized crime view Christians who openly 
oppose their activities as a threat, especially when Christians 
get involved in social programs or in politics.
    Secondly, criminal organizations know that the Christian 
faith is not compatible with their ideals. They fear Christians 
will influence members of the community or even members of 
their own organizations to oppose activities. All denominations 
of Christianity can become victims of organized crime, though 
it affects mostly the more outspoken Christians who fulfill 
leadership positions. Let me mention a few examples on Mexico.
    In many states of Mexico violence is pervasive but affects 
actively practicing Christians to a high degree. Churches and 
other Christian institutions are often seen as revenue centers 
by drug cartels. The extortion of priests, pastors, but also 
Christian business owners is commonplace. Attending church 
services increases the threat of kidnapping and youths are 
particularly at risk of being recruited into gangs.
    Social initiatives are also faced with major threats, 
especially initiatives that enter the area of influence of 
criminal organizations. Drug rehabilitation or youth work are a 
direct threat to the market and influence of drug cartels and 
therefore increase the vulnerability of Christians engaging in 
these programs. From personal research on the ground I can 
confirm that there is widespread and sophisticated surveillance 
and monitoring by members of drug cartels within churches.
    And now turning to Colombia. In many parts of Colombia, 
similarly to Mexico, organized crime is responsible for 
demonstrable threats to certain forms of religious behavior. 
The second dynamic that restricts religious freedom in the 
Americas is the presence of hostilities against conversion to 
Christianity in indigenous areas, especially in Mexico and 
Colombia. Converts to Christianity are regularly threatened, 
excluded from access to basic social services, beaten and 
displaced by tribal leaders, and they are not given sufficient 
protection by their government.
    The third dynamic that restricts religious freedom in the 
Americas is communism. In Cuba, pressure on Christians 
continues in the form of harassment, strict surveillance and 
discrimination including the occasional imprisonment of 
Christian leaders. Religious practice is monitored and all 
church services are infiltrated by spies.
    In Venezuela, the pressure on Christians is subtle, but any 
organization which is influential is restricted by the 
government. For years, the Venezuelan administration has 
attempted to shut down private Catholic education in favor of 
public schools. And in Bolivia, through administrative and 
bureaucratic obstacles, Christians are also restricted in their 
freedom to exercise their right to worship.
    Your excellencies, I recommend the following. First, I 
recommend that the specific vulnerability of actively 
practicing Christians is taken into consideration in U.S. 
foreign policy and by the U.S. Congress in performing its 
oversight function. The U.S. Government should make the 
reduction of risks for Christians caused by organized crime an 
integral part of its foreign policy.
    Second, special attention should be given to ratio of 
structural violence, impunity, and corruption as Mexico and 
other Latin American states are not always diligent enough in 
terms of investigating issues related to violations of freedom 
of religion and expression. Third, the U.S. Government should 
urge the Colombian Government to include religious freedom in 
their agenda for ongoing peace talks with the FARC guerillas.
    Fourth, the U.S. Government must put pressure on the 
Colombian Government to counter the abuses in the realm of 
religious freedom of the constitutional provision that grants 
autonomy to indigenous territories. Fifth, I also recommend 
that advantage should be taken of the recent developments in 
diplomatic relations with Cuba to specifically address the 
religious freedom situation in that country.
    Sixth, finally, the U.S. Government should work together 
with Latin American states to create a system in which churches 
and Christian leaders who are victims of extortion feel safe to 
denounce the threats against them.
    [The prepared statement of Mr. Petri follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                ----------                              

    Mr. Duncan. Thank you, Mr. Petri.
    Mr. Coll, you are recognized.

STATEMENT OF MR. RICHARD COLL, FOREIGN POLICY ADVISOR FOR LATIN 
 AMERICA AND GLOBAL TRADE, OFFICE OF INTERNATIONAL JUSTICE AND 
      PEACE, UNITED STATES CONFERENCE OF CATHOLIC BISHOPS

    Mr. Coll. Thank you, Congressman. My name is Richard Coll, 
Foreign Policy Advisor, Latin America and Global Trade for the 
United States Conference of Catholic Bishops. I would like to 
thank the Honorable Representative Jeff Duncan, chairman of the 
subcommittee, and the Honorable Representative Albio Sires, 
ranking member, for the opportunity to testify today on 
challenges to religious freedom.
    I will be summarizing my written statement submitted for 
the record of this hearing, and I respectfully request that my 
statement be added to the record.
    The bishops of the United States are deeply disturbed by 
the terrible human consequences of violence in Latin America 
and the effects of violence on religious freedom and human 
rights in the region. Many Catholic bishops, priests, religious 
and lay workers have been the victims over the years of 
assassinations, violence, death threats, and hostility often 
directed at them as a consequence of their work as pastors and 
defenders of the rights of their people.
    The gospel and Catholic social teaching call us to defend 
poor and marginalized communities and to oppose the persecution 
that results from a criminal response to this ministry. 
Catholic social teaching has consistently called for democracy, 
human rights and robust civil society institutions. In 
promoting these noble objectives many church leaders and 
workers have paid a grievous price.
    Catholic social teaching is founded on the sanctity of the 
life and dignity of all persons. All are created in the image 
and likeness of God. The state and its political structures 
exist to serve the human person and in particular to foster the 
common good. All human persons have rights that are of divine 
origin. It is as a result of these core religious beliefs when 
acting in solidarity to support the legitimate claims to life 
and dignity of all peoples in Latin America that many church 
leaders and workers have become the targets of violence. Let me 
give you examples.
    In Latin America the exercise of religious freedom has been 
challenged by state and society throughout the region. In some 
countries as has already been noted, such as Cuba and 
Venezuela, the free exercise of religion has been suppressed 
with religious believers imprisoned and persecuted for their 
beliefs. In other countries religious freedom is given wider 
respect but continues to be challenged by political leaders and 
groups who seek to drive religious believers or actors out of 
public life or to limit the role of religious belief and public 
debate. These include restrictions on participation of 
religious groups in political discussions, and it includes laws 
which fail to extend conscience and religious exemptions to 
individuals. A great example is the case of Article 130 of the 
Mexican Constitution which prohibits religious organizations 
from challenging or criticizing the laws of the state.
    In many countries in Latin America the challenges to the 
church and to organized religion, as also has been noted, come 
not only from the government but from the operation of 
criminal, guerilla, and paramilitary actors engaged in violence 
against their fellow citizens. In defending the right to life 
and dignity of its innocent and tormented people, the Church's 
bishops, priests, and religious lay workers have often become 
the victims of retaliatory violence at the hand of these 
criminal groups.
    According to a report by Fides, the international service 
of the Pontifical Mission Societies, 22 pastors and care 
workers--19 priests, one religious sister, and two lay 
persons--were killed worldwide in 2013, almost double the 
number killed the year before. For the fifth consecutive year, 
Latin America had the highest number of such deaths in 2013. In 
the Americas, 15 priests were killed--seven in Colombia, four 
in Mexico, one each in Brazil, Venezuela, Panama and Haiti. By 
2014, the number of priests killed in Mexico increased to nine, 
making that country as has been noted the most dangerous nation 
in the world to be a Catholic priest.
    In solidarity visits to Cuba and Venezuela as well as to 
Colombia, Peru, El Salvador, Guatemala, Honduras and Mexico, 
USCCB delegations have witnessed firsthand the remarkable 
spirituality and courageous actions of many church leaders, 
priests, religious and lay workers. In Peru, this threat of 
violence has extended to Archbishop Pedro Barreto in connection 
with his work defending the poor from the violence caused by 
unregulated mining operations in his archdiocese.
    Bishop Alvaro Ramazzini of Guatemala likewise has received 
numerous threats on his life for his work in support of 
indigenous communities. Bishop Raul Vera of Mexico has 
courageously identified the criminal elements, be they 
narcotics traffickers, gang members, or local government 
officials that murdered innocent Mexican citizens in numerous 
slayings.
    In Honduras, a large number of priests and religious spoke 
to us about the violence they had witnessed or experienced 
personally as a result of defending the rights of local 
communities to protest against dangerous mining operations. 
Comparable threats have been received concerning religious 
leaders and workers in the Central American region who have 
spoken in support of their afflicted people.
    In this way these brave individuals mirror the profound and 
powerful example of Archbishop Oscar Romero who was recently 
beatified in a moving ceremony in El Salvador. He gave his life 
in 1980 defending the rights of the Salvadoran people to peace, 
freedom and dignity, and many church leaders and followers have 
followed in his footsteps.
    To quote from a letter from Bishop Richard Pates to 
Secretary of State John Kerry, ``My brother bishops in Central 
America have urged us to encourage alternatives to the 
militarization of U.S. assistance and to instead emphasize 
economic opportunity. The United States must recognize our own 
contributions to the crisis which exists in the region, and 
support more effective programs that reduce drug usage here at 
home. The regulation of gun exports, coupled with criminal 
justice reforms that foster rehabilitation rather than 
retribution, need to implemented by our states and our Federal 
Government.''
    Congressmen, your roles as representatives of this great 
nation brings great responsibilities. The decision to support 
justice for the peoples of Latin America is of crucial 
importance to these efforts at addressing the root causes of 
this crisis. All must act in a way that respects the dignity of 
all human persons and enables the proper participation of all 
Latin American citizens reducing conflict and division. As 
members of this esteemed Congress you can play a vital and 
lifesaving role in solidarity with the Catholic Church and the 
people of this region. This can be accomplished by effectuating 
budgetary decisions that support peaceful development, economic 
growth and the rule of law, and by addressing the grave 
problems of human, narcotics and weapons trafficking over our 
borders.
    Thank you for providing crucial moral leadership to assist 
the people of Latin America in creating viable and prosperous 
societies. In this way, human rights and the strengthening of 
robust civil societies will be secured, which will lead to more 
just and equitable development reflecting the common patrimony 
of all God's children. The USCCB stands ready to work with you 
and with the Church in Latin America in bringing such hopeful 
prospects to a fruitful resolution. Thank you again.
    [The prepared statement of Mr. Coll follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                      ----------                              

    Mr. Duncan. I want to thank the witnesses. They have just 
called votes so we are going to recess, probably for about 30 
minutes. There are three votes, and we will come back. 
Hopefully Mr. Luna will be here. We will take his testimony and 
then we will get into the question session of this. So if you 
will bear with us, we will stand in recess.
    [Recess.]
    Mr. Duncan. Okay, we will reconvene the hearing. I 
appreciate you all's patience and we will recognize Mr. Luna 
for an opening statement for 5 minutes.

     STATEMENT OF MR. RICARDO LUNA, GLOBAL VICE PRESIDENT, 
                CONFRATERNIDAD EVANGELICA LATINA

    Mr. Luna. Thank you, sir. I value what you are doing here. 
The fact that you are focusing on religious liberty in Latin 
America is very important for Latin America and for religious 
liberty as well as what Rabbi David Epstein does in Latin 
America and all over the world in his role as ambassador. And I 
think--I have been involved with the State Department, their 
report on religious rights, human rights, and these three offer 
a great service to the continent, so thank you.
    I briefly want to share on behalf of CONEL. CONEL is 
Spanish for Confraternidad Evangelica Latina, Latin World 
Evangelical Alliance. We used to be Latin American, called 
CONELA, Latin America, but Latin identity is now global. To get 
what this means is that in the United States if you have heard 
of NHCLC, Samuel Rodriguez, they are CONEL in the United 
States, U.S. Hispanics, about 40,000 churches represented.
    We serve a community of approximately 500,000 churches in 
Latin America. Those we have certified. We, actually, as of 
2010, we think the number is actually closer to 700,000, but we 
say 500,000 certified, the missional community we serve. Our 
board members for our unity are the regional leaders 
representing approximately 80 percent of the churches in Latin 
America, a local church anywhere from 20 and 30 members to 
large churches of a thousand to 2,000. Various countries have 
churches of 7,000 to 100,000. Yes, one local church that meets 
in homes and then in the stadium on the weekend.
    So this is the church in Latin America where 21 nations, 15 
island nations, in addition, about 500 million people, so the 
issue of religious liberty is very important. And I think I am 
more connected to the local church in terms of especially the 
evangelical church, but also in our relations with our Catholic 
brothers and others whom we meet both at a regional or at a 
local level.
    There is just three very small things that I want to point 
out in this opportunity to be here. One is the situation of 
religious liberty du jour, de facto, and policy opportunities. 
Du jour, I think our colleagues have spoken well to that. There 
is a lot of documentation including your own staff, I am 
assuming.
    Du jour, most countries in Latin America have adopted the 
U.N. Declaration of Human Rights. Article 18 is part of 
everybody's agenda and so it is present. And if the world could 
be safe for religious liberty because we have constitution and 
laws, then we would not even need to have a hearing about what 
issues and challenges we face, but obviously it is not.
    You have heard from our colleagues, I think, about Mexico. 
To give you one idea, in Mexico, every time there is an 
expulsion in San Juan Chamula or anywhere in the Mexican state 
18 laws are broken. Every time there is one expulsion. This is 
from a human rights lawyer that has been working there for 
decades. So 30,000 people in one community, over 90,000 people 
have been evicted and that is 180,000 laws broken.
    So sometimes it is not the fact that we have laws, it is 
the enforcement of laws that is the great challenge, so that is 
why I would like to focus on de facto. De facto is the reality 
on the ground. In this reality on the ground I have personally 
been involved in, in the last 35 years. Being involved on the 
ground, I have been in Cuba where I have been kicked out for 
being part of the CIA, because everything that is not 
controlled by the state becomes that.
    Nevertheless, I acknowledge these are changing times. There 
is improvements in many areas, but in Colombia that means being 
involved in conflict areas at a very local level, getting to 
know the actors through the Colombian Peace Talks, as my friend 
Ms. Stangl here, with left-wing guerrillas, the right-wing 
paramilitaries and finding out again from the base communities. 
Everywhere I have been there is a local church of these 500,000 
churches. The du jour situation is one, but the de facto, what 
does it look like on the ground is important.
    And it is important to highlight the two types of 
oppositions that we have had historically and currently. One is 
revolutionary extremists. They are not only in the Middle East. 
In Latin America we have been dealing with them for over 50 
years, 60 years and more depending on the country. And 
revolution extremists put the Church in the middle of conflict 
and the Church is caught in a crossfire we say.
    And as the Church is caught in a crossfire, as you have 
heard we have expulsions, we have deaths, we have 1.5 million 
refugees in a place like Colombia. We have 120 Catholic 
priests, over 250 evangelical pastors killed because they are 
caught in a crossfire. Because in a situation like conflict 
people say you are either with me or against me, and some 
people to revolutionaries of the left and other counter 
revolutionaries, if you will, of the right, they both put the 
Church in that position.
    And in this setting it has been wonderful to be able to 
document with the State Department cases. We have had histories 
of cases documented yearly that put this, as we say what 
happens to one in a local place in the middle of nowhere 
happens to all of us, and I think it is very beneficial. Du 
jour and de facto, two realities.
    But I want to affirm, and as I was looking over the goals 
you have for this committee, in two very brief recommendations. 
The first recommendation of where religious liberty is going 
needs to have one more word added to the ``religious'' which is 
religious ``equality.'' In Latin America, the values that we 
have as Latins--God, family--places many of our communities, 
like the ones represented here from our Catholic Church, from 
human rights NGOs, and on this side and that, places us 
together to focus on two areas of religious equality.
    One, I think that we would focus on religious equality 
where we can express our religious liberty that we have our 
values. For instance, what that means specifically is that in 
areas of same-sex marriage, in areas of abortion, evangelicals, 
Catholics, NGOs, and Latin culture in general has declared 
itself very publicly. There is a study of 12 nations in Latin 
America, 45 globally, attitudes and behaviors of youth where 82 
percent of the youth in Latin America declared themselves to be 
part of what can be called traditional, by other definition 
biblical, family.
    So religious equality issues tied to religious liberty, we 
need to be able to express this. Because there is now U.N. 
policy, sometimes U.S. policy that tells us we have to accept 
the United States' or United Nations' view of this versus our 
own. So this issue of religious liberty and religious equality 
there is a great concern and a generational concern that we are 
able to express this and be respected in our religious liberty 
to believe and to organize ourselves as such.
    We believe it is very important with our Catholic brothers 
to stand, I think, with great respect for the law, great 
respect for people in democracy to each require their own 
actions, understanding that, but we want to express these 
values. I think the issue of religious equality is an issue 
also of what governments will do with the growing evangelical 
church. In 1900, 1 percent of Latin America was evangelical. 
Today, depending on the country, 5 percent lowest to 50 
percent, maybe 15 percent as you look as an average in Latin 
America.
    So what do you do when as a state--this is a question for 
state, it is not a question of a church to church, of the 
state--what do you do when the official Church has, receives 
grants for education, receives million-dollar grants to exist 
as an organization, has the opportunity to import, has the 
opportunity to be legal, to be tax exempt, and the growing 
evangelical churches don't?
    This really brings up the issue, which is very important 
for the 500,000 churches in Latin America, of religious 
equality. What does religious equality look like? There is a 
great example in the case of Chile. Chile is the only country 
that has passed a religious equality law. To do so, evangelical 
leaders that wanted to find solutions, not blame, Catholic 
leaders, as a matter of fact the two top lawyers were a 
Catholic lawyer and an evangelical lawyer, got together to look 
at it as a state issue of how to make religious liberty and 
religious equality, what does it need to look like in the 
twenty-first century.
    And in the case of Chile they passed the only religious 
equality law in Latin America. This means that evangelicals 
have access to the chaplaincy in prisons as well as in the 
military. It means they could exist legally in the same way. 
And this question is not only for the evangelical church but 
for all minority religions. The changing face requires.
    And if there is one recommendation that I would love the 
committee to consider is, how do we do that and how do we do 
that in brotherhood and how can we partner for that? And toward 
that end count on us, CONEL, as a group that would very much 
like to be part of a solution of anybody working this issue.
    The other issue, very briefly, we focus on children. 
Children are at the forefront of expressing or of living every 
problem that has to do with sexual trafficking, every problem 
that has to do with gangs--82,000 just in two countries of 
Latin America, 82,000 gang members. In El Salvador, 17,000 gang 
members stopped the functioning of the country for 1 day. So 
when children are victims of these gang members, where narco-
trafficking which went beyond Colombia and the Andean countries 
and northern Mexico as we all know, and the children become 
what they call the ``mules,'' the messengers and the 
transporters, the children are placed in a very precarious 
situation.
    This very precarious situation has actually caused Latin 
America to live an immigration crisis in every country through 
refugees, 1.5 million, two million, a hundred thousand, 
different countries. And as we live these situations, we are 
looking, can we agree on the rights of children? And with this 
I finish, what is the recommendation.
    I have a meeting next month in Chiapas, Mexico where three 
Central American Presidents, where people involved in refugee 
and children-at-risk, children as victims of sexual 
trafficking, 57 million that have to work as children, we are 
coming to, we want to adopt principles that would allow us to 
recommend, to promote, to work for in every country. I will 
just read to you what they are and then I will finish with 
that.
    Principles toward children, this is my wrap-up, four 
points. One, principles that respect the God-given dignity of 
every person, protects the unity of the immediate family, 
respects, and especially the children, respects the rule of law 
and guarantees secure national borders. Our idea is that we 
want to ask Latin countries to respect these four issues, and 
insofar as religious liberty and human rights focus on children 
and the church's response to them. If there is a way that 
through the work of your committee and of the United States 
Government we could find a common place to do that, that would 
be very welcome. Thank you so much for your time.
    [Mr. Luna did not submit a prepared statement until after 
the hearing. It has been inserted into the appendix.]
    Mr. Duncan. I want to thank the panelists for their opening 
statements. We will now move into the question portion of the 
hearing. Mr. Luna, I will start with you. And in your opinion, 
where other than the United States, and we can have an argument 
about religious liberty in the United States which I think we 
ought to talk about as well, but where can one go to feel like 
they can worship freely in the Western Hemisphere? What 
countries lead in the realm of religious freedom? We know the 
bad actors, right, so we talk about Cuba and we can talk about 
Nicaragua. What are some of the good actors?
    Mr. Luna. Chile is very strong. As I say, if there is a 
leader both du jour, de facto in the Latin continent it is 
Chile.
    Mr. Duncan. For all religions or just more Catholicism or--
--
    Mr. Luna. For all religions. There is a movement among 
evangelical leaders to not think of, of course to represent our 
communities which are evangelical, but to look at the issue of 
religious liberty and equality as for all religions. And we 
form part of committees at a national level that are of all the 
different religions so that the same law could apply to the 
religions.
    Mr. Duncan. So Chile is one, who is another?
    Mr. Luna. Chile is one. All the other ones I would say we 
have challenges in, which is why we need to----
    Mr. Duncan. Paraguay, Uruguay, any Caribbean country? 
Suriname, Guyana, any of that? Brazil? I am asking, I don't 
know.
    Mr. Luna. Yes, Brazil has had a strong tradition of 
religious respect. I think all countries have two realities. 
One where they are models and they are living models, 
especially in the cities and in certain sectors, but they also 
have the challenge, which is why I think we need to focus on 
religious liberty and equality for the new challenges.
    Mr. Duncan. Let me ask other panelists if you will chime 
in. Who do you see as the good actors?
    Ms. Stangl. I do think actually Brazil that you mentioned 
is one of the leading lights in the region. There has just been 
an effort to submit for consideration a new bill on religious 
freedom in Brazil. They already had a very good framework, but 
they wanted to make sure it was the best it could be and they 
want it to be a model for the rest of Latin America.
    There is something of a battle in some of the countries of 
militant secularism, and as Mr. Luna and as Mr. Coll said, kind 
of banishing, trying to banish religious speech from the public 
sphere. You do see that to an extent in Brazil, but I would say 
as far as worship on a Sunday morning or Friday at mosque or 
Saturday at the synagogue, Brazil is probably one of the 
leaders as well as Chile.
    Mr. Duncan. All right, Mr. Petri?
    Mr. Petri. Well, I think as I said, as far as national 
legislation is concerned there is really not that much wrong 
with Latin American countries. And, really, in my testimony 
what I tried to convey is that we should broaden the scope of 
religious freedom. Not only look at it from the legal 
perspective, and again I don't think there are that many 
problems in Latin America. Of course the good students really 
are Brazil, Chile, Costa Rica, which is the country that is my 
home, but I think from a legal perspective there is not that 
much that is wrong.
    But from the human security perspective there is a lot more 
that is going on, and that is something that is very often is--
--
    Mr. Duncan. Let me get Mr. Coll on the record.
    Mr. Petri. Sure.
    Mr. Coll. Thank you, Mr. Chairman. And I would just like to 
follow up on Mr. Petri's very wise observation that I would 
like to offer up the church in Colombia and Colombia generally 
as being an example of how religious freedom operates in a way 
that vindicates the rights of the common people. The church in 
Colombia particularly under the leadership of Cardinal Salazar 
has as you know been very instrumental in helping to negotiate 
a settlement with the FARC, and through its Pastoral Social has 
also been very active in trying to develop a form of social 
services and social outreach to impoverished people. We were in 
Bogota just a year or so ago and it is really wonderful to see 
the work that happens there. I would offer up Colombia as a 
great example of how effective religious freedom can affect the 
facts and the root causes on the ground.
    Mr. Duncan. Well, I thank you all for that. Violence has 
been talked about a lot. I think the ranking member mentioned 
and probably will mention again the video of someone being 
pulled out of a church, a White Lady being pulled out of the 
church--Ladies in White, rather--by a priest. Violence, how it 
leads to persecution.
    I guess I am asking, is this more a government sponsored 
violence? We heard about gang violence and the cartel and other 
things, but do you see, what is the balance there between a 
criminal element violence and government sponsored violence 
across the region? I would just focus in on Cuba, but across 
the region is it more government sponsored? Is it more criminal 
elements? Ms. Stangl?
    Ms. Stangl. I think it is a very complex mix. I think in 
most countries it would be criminal groups, however with 
exceptions in Cuba and in Mexico. And Cuba you see kind of 
government paramilitary groups that come in in plainclothes 
pretending to be civilians who also attack the Ladies in White 
in trying to prevent them attending Mass. And that is 
definitely, although they are not wearing government uniforms, 
a government orchestrated campaign of violence.
    In Mexico, on the very local level in certain regions, 
there is a campaign of violence carried out by local officials. 
They are not top government officials but local, maybe a mayor, 
the local town council. And that is often met with impunity 
which gives the impression that the higher-up government either 
doesn't care enough or endorses that kind of violence. But in 
the other countries it would be much more criminal, non-
government actors.
    Mr. Duncan. What--again, this, really not what I want to 
ask. Let's ask this. Have you seen evidence of the State 
Department or local embassy officials engaging with governments 
in the region on these issues to encourage governments to 
revise their regulations or their laws of making church 
registration more difficult or for religious groups?
    So we have got governments that are requiring churches to 
register, we talked about that in your statements and mine. Do 
you see the U.S. engaging those governments in saying, look, 
church registration is counterproductive to religious freedom? 
How do you see our State Department acting on this? Mr. Petri, 
you look like you want to answer.
    Mr. Petri. I think the Obama administration has really not 
paid that much attention to religious freedom apart from the 
annual publications.
    Mr. Duncan. Well, they haven't paid much attention to this 
region in general, but----
    Mr. Petri. Yes, of course. But apart from the annual 
publication of the International Religious Freedom report, 
there is just not that much that has happened in the field of 
religious freedom in the Americas.
    And I also think that is an important point I want to make. 
I think as was said earlier, the full scope of religious 
freedom is not taken into account by the International 
Religious Freedom report of the State Department, because what 
you see in Latin America--and I think Cuba is really an 
exception because their persecution is mostly state sponsored.
    But if you look at the other countries, persecution is not 
based that much on religious identity or on church attendance 
but more on behavior, so it is your religious convictions that 
make you vulnerable to suffer human rights abuses. But identity 
as such, just the fact that you own a Bible or that you go to 
church, is not enough to be persecuted. That is not the 
dynamic. That is why religious freedom violations are often 
misunderstood in Latin America.
    And that is really what I want you to take away from this, 
that that is actually one very important I mentioned and that 
is very present in Latin America and it should be taken into 
account.
    Mr. Duncan. All right, my time is up. I am going to yield 
to the ranking member, and we will come around for the second 
round of questions.
    Mr. Sires. Thank you, Mr. Chairman. We usually have people 
from the State Department here, and I am one of those 
individuals that think that democracy is in trouble in Central 
and South America. I think we are going the other way.
    I was just wondering if suppression of religion goes along 
with that, that we are going the wrong way in all of these 
countries.
    Mr. Luna. One of the things--oh, excuse me----
    Mr. Sires. Go ahead.
    Mr. Luna [continuing]. Mr. Sires, is that it is more 
sophisticated now. At one point, see, in Cuba it was very 
clear, atheism, and religion is--in today's world it is a fine 
for something you are doing. It is a church in Caracas, 
Venezuela, a very prominent church was going to be taken over 
because they didn't fulfill certain local ordinances. So I 
think now because of human rights people are very careful not 
to say I am going after you because of religion.
    But what is behind there is that like in these types of 
attacks that are--it is through mobs which are done by the 
government. The situation in Cuba is, I would say, has some 
parallels in Venezuela, for instance, in this respect.
    So there is definitely an opposition to church, but it is 
more sophisticated, and how to do that. And I think we can 
report this. In my contact with local embassies and placing it 
in the national report has been very key, but as far as how to 
promote something different I have not seen evidence of that.
    Mr. Sires. Mr. Coll, do you see it go as the wrong way?
    Mr. Coll. Well, I think that in some countries there are 
certainly increased challenges, and I think those challenges as 
we have heard already this afternoon come from two different 
angles. One is the governmental policy that can challenge, 
whether it is in the case of the Cuba or in the case of a 
Mexico where there has been historically over hundreds of years 
efforts at secularization and where, frankly, the Catholic 
Church has been under extreme duress--the Cristero Wars in the 
1920s--the victim of a great amount of violence in Mexico.
    I also think that as we also heard, in many countries--
Colombia, Peru, other parts of Latin America, certainly in 
Central America--the challenges come from the issues of 
poverty, narcotics trafficking, arms trafficking, political 
violence, gang warfare, and to address those we won't be able 
to address them through legislative solutions or even political 
solutions. Rather, we need solid economic and developmental 
causes to be addressed.
    In that regard, for instance, I had an opportunity to meet 
with Cardinal Salazar, whom I mentioned, who was such a 
supporter of the FARC negotiations. And I asked him, how can we 
as a church in the United States support you in Colombia in 
reaching a peaceful resolution of these issues? And he said, 
you can cut down on the drug demand from the United States 
because your insatiable demand for drugs from the United States 
is killing our people.
    And then I would just finally add that we as a conference 
have been a long supporter of the Frank Wolf International 
Religious Freedom Act of 2015. We believe that enactment of 
that bill would be very helpful in terms of enhancing political 
diplomacy in the preservation of religious freedom and in 
vindicating greater education for State Department officials to 
recognize the importance of religious freedom.
    Mr. Petri. Yes. Well, Mr. Sires, I think I agree with you 
that there are challenges to democracies in Latin America. I 
think Latin America, the democratization----
    Mr. Sires. Go hand in hand.
    Mr. Petri. Of course. The democratization 30 years ago that 
started in Latin America led to electoral democracies, but 
quality of democracy there is still a lot of work to be done 
especially in the field of service delivery in all social 
aspects. And one of those elements is of course religious 
freedom, the protection and enforcement of religious freedom.
    So it is all very nice on paper, but the enforcement of 
religious rights is a major challenge, and together with that 
the corruption infiltration of security and justice systems is 
also a big issue in some of the countries in Latin America. So 
yes, I agree with you that they both need to go hand in hand.
    Mr. Sires. Ms. Stangl?
    Ms. Stangl. Yes, to your question on Central America if we 
are going backwards, I was in El Salvador last weekend at a 
conference on violence in Latin America and how it is affecting 
religious freedom. And what we have seen in El Salvador and the 
countries surrounding it is that the levels of violence and the 
government response in some cases is so extreme that the 
impotence of society is also very bad.
    One very prominent denominational leader, Pastor Mario 
Vega, earlier this year was named on a web page supposedly run 
by kind of government death squads, named and threatened 
because of his speaking out about some of these policies and 
defending the churches. He said to me, in a country like El 
Salvador we have such high levels of criminal gangs and 
activities it is impossible as a pastor or a priest not to have 
some contact with them.
    At children's events 90 percent of the children are 
children of gang members, and so you are living every day in 
your ministry with that dynamic. At the same time illicit 
association is now considered a crime by the government. And so 
a pastor who is trying to work with these communities trying to 
transform these communities, or a priest, can also be in danger 
unfortunately from the government side of being of accused of 
illicit association. So it is definitely going backwards in 
that sense.
    Mr. Sires. Thank you.
    Mr. Duncan. I thank the gentleman, and now the Chair will 
go to Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. Is there any 
particular place in Latin America or in the Western Hemisphere 
where it is more egregious, the interference of religious 
freedom, is there any one area where it is more egregious than 
the others? To anyone, if you are aware of.
    Ms. Stangl. For CSW there are different types of religious 
freedom violations, but our three priority countries and the 
countries we consider to be the worst at the moment are Cuba, 
Mexico and Colombia.
    Mr. Petri. Yes, for Open Doors those are the same three 
priority countries as well. And there is many offense that are 
occurring at the same time in different countries and to 
different extent, but those two countries are the highest 
priority as far as religious freedom is concerned.
    Mr. Donovan. Well, when you think about Cuba, where the 
administration has just resumed relationship with Cuba without 
any demands on improvements of human rights in Cuban 
Government, have we seen any places where there has been 
improvement at all?
    Ms. Stangl. You are correct in Cuba. We have seen zero 
improvements in religious freedom since these negotiations 
began, unfortunately. As far as improvements in other 
countries, we have seen some improvements in Colombia as a 
result, I think, of the peace talks and some government efforts 
there. And there are positive noises coming from Mexico very 
much due, I think, to pressure from the chairman of this 
committee and other Members of Congress who have raised this 
issue consistently and strongly with the Mexican Government.
    Mr. Petri. There are improvements, but at the same time 
there are also deteriorations on different fields at the same 
time. So I think, as also mentioned, I think we should really, 
or you should take advantage of the dialogue that is now 
starting with Cuba to really address religious freedom in that 
country.
    And some things, and just looking at Mexico or Colombia 
some things have improved, especially relationship between 
churches are much better than any of the past legislation has 
improved, but then organized crime is really putting, as I 
said, actively practicing Christians under threat in these 
countries more and more. So as things go better other things go 
worse.
    Mr. Donovan. Well, my understanding from one of the 
witness's testimony that some of it is governmental intolerance 
of religious freedom and some of it is guerilla intolerance 
that is, I don't know if it is supported by government or 
ignored by governments. Besides the hearings that we have here, 
what could the United States Government do to help?
    Mr. Coll. I would just also like to add to the list of 
countries, we should focus on Venezuela. From the Catholic 
perspective, a country that is one in which the Catholic Church 
is the victim of a tremendous amount of political and other 
pressure, and where one can only hope that political 
developments will evolve in a way over the next couple of years 
to restore that country to a fuller expression of religious 
freedom.
    In terms of recommendations, I will just mention again that 
from our perspective the Frank Wolf International Religious 
Freedom Act of 2015 would be a great step forward in terms of 
enabling the State Department and other political actors within 
our government to vindicate more effectively religious freedom 
around the world.
    Mr. Luna. The focus having been on documentation, as I 
said, was a great contribution, but the word here was mentioned 
``enforcement.'' So I affirm the support of this act because it 
moves us along, but the idea of enforcement, I think, is the 
direction that we could move to.
    And I also add from the evangelical perspective Venezuela 
as well. Criminal elements are always handled by people of 
power and authority. The guy that you hire or the mob you hire 
is there at somebody's hiring, so we have seen a great increase 
of that. And in the midst of that we have seen great growth in 
the Church. A recent newspaper article from the government said 
that one out of every five Venezuelans is now an evangelical 
and it is a difficult position for them to be in.
    Mr. Petri. I think all the efforts that are being done 
currently to strengthen the states should actively integrate 
the perspective of religious freedom much more than is the case 
now. That is, I think, my main recommendation, understanding 
the full scope of religious freedom violations in Latin 
America.
    And then as I said, take advantage of the current dialogue 
with Cuba to address religious freedom. Also take advantage of 
the current dialogue between the Colombian Government and the 
FARC guerillas and try to urge Colombia to put religious 
freedom on their agenda as well, just taking advantage of the 
current context.
    And there was another recommendation I made, I think, is 
that the U.S. Government should work together with Latin 
American states to create a system in which Christian leaders 
feel free to denounce threats that they are victims of threats 
against them, because that is also something. If they cannot do 
that in their own country because there is corruption, because 
there is impunity, because they are often too afraid to 
denounce and to report what they are facing there should be an 
alternate system for the case to get out.
    Mr. Donovan. Do any of you think that economic pressure 
will help the governments realize that they have to do 
something about the oppression of religious freedom in their 
countries? One of the fears, always, of our country putting 
economic pressure on another country is that the government 
doesn't suffer, the people suffer. And so whatever pressures we 
put on, whether we stop trade or we stop sending resources 
there, it is actually the people who we are trying to help are 
the ones who actually get harmed.
    Does anybody believe that some economic pressure on any of 
these countries would make them turn around and realize that 
losing American support economically isn't worth what they are 
doing in their country?
    Mr. Coll. Speaking from our perspective at the U.S. 
Conference, we would strongly advise against the position of 
sanctions or economic pressures for two reasons. First of all, 
we do not believe that historically economic sanctions have 
been effective. Secondly, we believe at the root cause of many 
of these difficulties, the violence, the political economic 
instability, the trafficking issues, resides a tremendous 
economic challenge that those societies must face. We believe 
that proper economic development, integral economic development 
is the path forward for these countries, and to impose 
sanctions on them that would cripple them in the development of 
their economies would be counterproductive and, we think, lead 
to worsening conditions.
    Mr. Luna. And just the idea of not sanctions but 
incentives, economic incentives for those that deal with these 
issues is important, but I think there is one realization that 
must be made. One thing is dealing with the government, the 
other thing is dealing with government officials. Official 
government policy may be right, but government officials, just 
to give you one very brief example.
    In Chiapas, President Salinas De Gortari at that time went 
to Chiapas to deal with the consejos, these landlords that 
kicked out 30,000 people. Those community leaders are called 
consejos. When he went, because of economic incentive that if 
we passed the Free Trade Agreement it would be good for Mexico 
from his end, people in the States thought it would be good for 
here and everybody was in agreement.
    And he went down and he says, hey, you guys really need to 
watch it here. Talked to a few of the presidents, local 
presidents, community presidents. He says, it will be really 
good if you guys could like tone it down and respect the laws--
because they have their own laws that they implement. And this 
is what the community leader told the President. Mr. President, 
you go preside in Mexico City but I am the president here.
    So if there is an incentive, in this case both sides on 
incentive with Free Trade Agreement and the president is 
motivated and his administration is motivated, it is the local 
official level, and how do you help them, through documentation 
and some way of enforcement, help those local people that are 
facing these situations even when the government says that they 
are on your side but sometimes are powerless?
    So how to do incentives and how to help those people that 
are actually facing where if they come out of the shadow they 
are going to, it is going to be a death threat. I mean, it is 
that simple. Their kids are going to be taken. Their kids are 
going to be shot. Especially in Central America, you mentioned 
this happens all the time, so how to help that situation, I 
think, is a challenge.
    Mr. Petri. Yes, I would also advise against economic 
sanctions. Instead, I would really focus on helping the states 
to reform their institutions and to rebuild and strengthen 
their democratic institutions, security system, justice system, 
but adopting an integrated approach that really pays attention 
to the enforcement of religious rights. I think that is the 
priority. Not economic sanctions, but focusing on helping 
states to become more effective at guaranteeing the enforcement 
of religious rights.
    Mr. Donovan. Whereas, opposed to sanctions, as the 
gentleman said, incentives is still economic pressure.
    I don't think I have any more time, Mr. Chairman, but if I 
do I yield it.
    Mr. Duncan. I thank the gentleman. You hit on one of the 
points I was going to bring up in my second round, is that as I 
said in my opening statement, the ability to worship and 
exercise one's faith without attack, censure or bribery or 
government reprisals is one of the most important metrics of 
freedom in any country. And I appreciate you all talking about 
the impacts from religious freedom on economics and what not.
    So shifting gears a little bit, let me ask you this. In 
Mexico we have got the law of uses and customs. How can the 
Mexican Government better monitor the implementation of the law 
of uses and customs to ensure it is practiced in accordance 
with human rights guarantees in state and Federal law? Ms. 
Stangl?
    Ms. Stangl. The Mexican Government already has very good 
mechanisms to monitor these cases and they are aware of the 
cases. The issue again, as was mentioned before, is 
implementation, rule of law and impunity. There are excellent 
state human rights commissions that monitor and actively work 
on these issues. There is a great national human rights 
commission that also does very good work. The problem is, 
although these are kind of quasi-government bodies, the 
government itself never implements what they do, what they 
recommend in the cases they are working on.
    So I think the breakdown there is not so much the 
monitoring but enforcing the law. People who commit crimes for 
religious reasons don't get an exemption just because they put 
a banner of religion over the top. Everyone should be held to 
account in the court of law. And helping Mexico strengthen its 
justice system, I think, would be a big step forward on that.
    Mr. Duncan. We have talked a lot about Bolivia and Ecuador 
and Mexico and Colombia and Venezuela. I am meeting with some 
folks from Haiti in a little while and then the Prime Minister 
a little bit after that. So when I think about the hemisphere, 
I know that we talked about the Americas. The title of the 
hearing is about the Americas. In general, we seem to be very 
southernly focused here on Central America, Latin America in 
general.
    What about the Caribbean? What about Haiti and the 
Dominican Republic? What about Bermuda or Canada? Those aren't 
mentioned in these discussions. How do you feel about religious 
freedom? Going into my meeting with Haiti, how is that 
perceived in Haiti? What is the impact of religious freedom, or 
is there oppression of any sort in Haiti or the DR or any of 
the Caribbean nations that I need to be aware of? And I ask all 
of you that. Mr. Luna?
    Mr. Luna. Reflecting on your question, one more country to 
add to move in the right direction is Peru as well. They have 
also faced conflict. They have done a lot of work in moving in 
the right direction.
    In the case of Caribbean, I think Dominican Republic is a 
case for strong relationship state-church on behalf of 
religious liberty and human rights. There is a strong presence 
and a strong desire in both groups. And in the case of Haiti, 
this is from a local church contact, the issues that they 
mostly focus on are development into such.
    There was a time when any political party in the struggles 
that Haiti has had can make anyone an enemy. And if you chose 
not to be corrupt or if you chose not to help a certain party 
do what it asked, you to do because you are in the 
neighborhood, it became a death threat and an eviction. But 
especially after the earthquake we have seen at least that 
communities, because of a maybe shared common need, have come 
together more and worked more intentionally toward being 
problem solvers than problem makers, from a local church level 
perspective.
    Mr. Duncan. Mr. Petri?
    Mr. Petri. Yes, well, actually compared with the Caribbean, 
I think Colombia is a very extreme case as far as the issue of 
religious freedom in indigenous territories is concerned. And 
Colombia has, I think, in the whole continent the most far-
reaching, gives the most, the highest degree, highest level of 
autonomy to indigenous communities. And in practice this gives 
indigenous rulers free room to implement authoritarian 
governments and where basic human rights, including those of 
religious minorities or converts out of traditional indigenous 
beliefs, are not respected.
    I think this is something that must be denounced and it is 
a constitutional provision that is, I think, really dangerous. 
I am convinced that respect for indigenous traditions and 
culture is very important in any democratic society, especially 
in those countries where there is a strong and historical 
presence of indigenous groups, but it must not be used as an 
excuse to tolerate and endorse bad governance and gross human 
rights violations such as, and those are the cases we are 
talking about, as torture or exclusion from basic social 
services.
    This is also happening in Mexico, but the legislation is 
all right except that it is not always being enforced. But in 
Colombia the legislation actually does not, I mean the 
constitution does not give to the central states the authority 
to actually enter indigenous territories when faced with human 
rights violations like this.
    Mr. Duncan. Mr. Coll, real quickly.
    Mr. Coll. Yes, thank you, Mr. Chairman. I am very grateful 
for the opportunity to offer some thoughts on Haiti and the 
Dominican Republic which are countries that are of great 
importance to us.
    Haiti, a great example again of root causes, tremendous 
poverty as we know, breakdown in the rule of law, breakdown in 
the administration of justice. A tremendous need to monitor aid 
carefully so that it ends up in appropriate projects that will 
build up civil society there and thereby, among other things, 
vindicate religious freedom.
    Dominican Republic, as you know there has been a very 
difficult situation there over the last couple of years given a 
supreme court decision that the high court of the Dominican 
Republic issued which threatens viability of certain residents 
of the Dominican Republic, many of whom are of Haitian origin, 
to continue to stay there. The government has been, I think, 
attempting to rectify that situation by passing new legal 
provisions that would provide a course for validating residency 
on an ongoing basis.
    As Ms. Stangl very eloquently pointed out in a different 
context, the laws may be fine but we need to make sure that 
they are administered effectively and that appropriate 
resources are devoted so that all petitioners have the 
opportunity to vindicate their rights.
    So I would just respectfully request, and I am sure it will 
come up in your conversations with the Haitian Prime Minister 
as well given the fact that many of these affected residents 
are originally of Haitian origin, that enough resources be 
allocated in order to make sure that the legal remedies, which 
the government is now passing to protect these residents, 
actually work on the ground to permit these residents to make 
claims to continue to stay in the Dominican Republic. Thank 
you.
    Mr. Duncan. Thank you. I yield to the ranking member.
    Mr. Sires. Thank you, Mr. Chairman. I will make an 
observation, then I have a question. To me when Pope Paul 
visited Cuba I thought some changes would follow. Now you have 
another Pope visiting Cuba next week. I just think that they 
somehow legitimize the governments when you have such a high 
ranking, or the highest ranking member of the Catholic Church 
go into these islands where those so much oppression of 
religion, and I don't know how they will see that.
    So I am hoping that this visit will make a change, but I am 
not very hopeful because they have had roundups, people have 
been thrown in jail, the most active ones are to be kept away. 
So to me this visit is more about legitimizing this whole thing 
that has been going on with Cuba in the last 3 months, over the 
last year, more than anything else, and the Church doesn't seem 
to see that. Because I didn't see any changes when Pope Paul 
went to Cuba.
    And the question that I have, we are talking about 
obviously all different types of religion and we also have the 
Jewish community in South and in Central America. How would you 
characterize the anti-Semitism trends in Latin America in 
recent years? Because I know that Buenos Aires has about 200 
Jews, Sao Paulo has about 80,000 to 100,000, and some of the 
other areas. Ms. Stangl?
    Ms. Stangl. Unfortunately, I think there have been 
significant increases in anti-Semitism particularly seen in 
Venezuela, but also in countries like Argentina. A lot of it is 
rhetoric, sometimes things like graffiti, not actual physical 
attacks but creating an environment of hostility. And many of 
the governments of those countries, in the case of Venezuela, 
has actually soaked that and encouraged that in some ways, 
where other governments have stood back and done nothing which 
allows this environment to continue to grow. I would say it is 
something definitely the committee to watch.
    The Jewish population has played a very important role 
historically in many of these countries and will continue to do 
so, I believe. But I think it is, looking at the general 
climate of the world and what is happening in Europe 
specifically, I would hate to see that kind of thing exported 
and grow and increase in Latin America as well.
    Mr. Luna. We can affirm that as democracy has weakened in 
many areas of Latin America there is a definite rise in anti-
Semitism. Venezuela being one, Argentina continued, Ecuador. I 
mean, we can go country by country.
    We at CONEL/NHCLC started, in response started a coalition, 
Hispanic Jewish coalition, got organized just a couple of 
months ago. We were meeting with members of the Israeli 
Government, Jewish community here and leaders in Latin America.
    One of the ways that can be strengthened is that every 
nation has, just like you have a Committee on Foreign Affairs 
here, they have a committee that deals with the state of 
Israel. In some of these places there is people of conviction 
that want to do everything they can to make sure that they deal 
with issues of anti-Semitism; that they don't just let acts of 
anti-Semitism in conversation, in art, drawing, many which are 
rising forth.
    So we believe that one of the contributions that the 
Christian community can make is to both use the word 
``denounce,'' but also ``announce.'' Build, do some positive 
contributions that can strengthen our relationship with the 
Jewish community. When you don't know a community it is easy to 
be opposed, but we believe very strongly that these steps need 
to be taken which is why we have created this coalition.
    Mr. Petri. Yes, you are very right to raise the issue of 
anti-Semitism. I think apart from the cases of Argentina and 
Venezuela which are really, well, mostly Venezuela but also 
Argentina, the most serious cases or examples of growing anti-
Semitism, other countries of Latin America have also seen 
isolated incidents and is something that should be followed and 
monitored very closely.
    Mr. Coll. Thank you. I would like to address the issue of 
anti-Semitism because it is a very important one, but I would 
like to just start out with a few comments on Cuba because I 
think that the two issues are in a way related.
    First of all, I want to express my deep respect and 
compassion with the views that you have articulated. I myself 
come from a family that originated in Spain and I know what it 
is like to suffer the divisions that come from a civil war or 
other political upheaval, and the terrible pain that comes from 
having families be divided over political issues. And I have 
deep respect for my friends in the Cuban American community 
who, like you, Mr. Ranking Member, believe the way you do out 
of tremendous good faith and a desire to see what is best for 
the Cuban people.
    Just by means of explanation, as you already know I take 
comfort from knowing that it is not just the testimony of three 
Popes now, John Paul II, Benedict XVI, and now Pope Francis, 
but the Catholic Church in Cuba itself, which I had the 
privilege of visiting a couple of years ago at the time of Pope 
Benedict's visit, that is very strongly supportive of this new 
opening and this rapprochement as a way of preserving the 
rights of the Cuban people and hopefully opening the doors for 
greater development.
    That is a hope, but it is a hope that frankly is based on 
our gospel values. And we as a Church embrace this objective 
not just because we think it is right, but because we think we 
are committed to do so by the words of our Savior Jesus who 
told us to love our enemies and to engage in dialogue and to 
forgive those who have harmed us.
    So I would offer that in deep respect and with awareness 
that your sense of the issues come from a greater commitment to 
the good of the Cuban people just by means of explanation of 
how we have come up with a different tactical approach. We 
share your aversion to the way in which the Cuban Government 
operates, and we hope and pray that this opening will vindicate 
the rights of the Cuban people in the future.
    How is this related to anti-Semitism? It seems to me that 
part of the problem that exists, as Mr. Petri and others have 
pointed out, Mr. Luna, is that communities in Latin America and 
elsewhere have been ghettoized, have been separated from one 
another. They have not experienced the truth of their 
respective religions.
    Dialogue is a great avenue toward overcoming those 
separations. We see the blessed relationship that exists 
between Pope Francis and a number of leaders of the Argentine 
Jewish community and how that dialogue, that relationship, that 
friendship has hopefully started the path toward the mitigation 
of anti-Semitism in Argentina, and we see that dialogue, that 
communication with hope toward opening up other areas of 
dialogue so that anti-Semitism and all other forms of hatred 
and division will be eliminated. Thank you.
    Mr. Sires. I will just finish by saying that the way 
Venezuela is going is just a satellite of Cuba.
    Mr. Coll. Yes.
    Mr. Sires. This is exactly what they do. After they took 
control in 1959, they went after the church to destroy the 
church and they were very successful, or any other religion. 
And I think you are seeing the 33,000 proxies that are in 
Venezuela from Cuba going about it the same way. Venezuela was 
a religious, the people, was go to church and now they are 
afraid to go to church. They are afraid to express their 
religion.
    Mr. Coll. Yes.
    Mr. Sires. So what we are seeing is the Cubanization of 
Venezuela.
    Mr. Coll. I definitely share your concern, Mr. Ranking 
Member. I was in Venezuela 3 years ago meeting with the local 
church there and very much support the view, the concern you 
have about trying to support their work so they don't end up 
with the same tragic consequences as in Cuba.
    Mr. Sires. Can I just add something else? I am sorry. This 
is fascinating to me because I saw the Church in Poland.
    Mr. Coll. Yes.
    Mr. Sires. How active it was.
    Mr. Coll. Yes. Yes.
    Mr. Sires. And basically moving that country forward.
    Mr. Coll. Yes.
    Mr. Sires. We don't see that movement in Latin America. We 
don't see that movement in Central America.
    Mr. Coll. Yes, yes. That is a great point, Mr. Ranking 
Member, and I think there are a lot of historical reasons for 
that. There is a different, frankly in Cuba there is a 
different relationship between the Cuban Catholic Church and 
the local colonial powers and then subsequently the local Cuban 
Government that took over once the Spanish left.
    I think your point is very well taken that institutionally 
the Polish Catholic Church for its own historical reasons and 
the experiences of World War II, et cetera, was in a much more 
effective position to be able to take up the challenges of 
supporting the political process than is the case and was 
recently the case in Cuba.
    As a result, I think the Cuban Catholic Church has felt 
that its efforts to vindicate human rights and to move the path 
of development toward the establishment of an authentic civil 
society has to be effectuated through other means different 
from the path of the Church in Poland. And, frankly, I think 
that is one of the endorsements that Pope John Paul II himself 
gave to the Church in Cuba for that choice.
    Mr. Sires. Thank you, Mr. Chairman, for your indulgence.
    Mr. Duncan. Absolutely. Thanks for the insight. I was 
sitting here thinking about Communism in general, what we saw 
with Mao and Stalin and they do away with the Church, do away 
with that right to peacefully assemble and gather and talk and 
worship somebody other than the government entity, the state, 
as is was known.
    I think in Cuba, I think Castro is probably more Catholic 
than maybe Stalin or Mao were any religion. That is why I think 
the Catholic Church maybe hung around a little longer. And that 
is just my perception, but I think you are exactly right in 
Venezuela. The elimination of religion in general helps 
solidify the state as the religion, and I think we see that 
over and over in a common pattern within socialism. So I want 
to thank the witnesses. This has been fascinating.
    I go back to the anti-Semitic activities. I will say this 
about Uruguay. I think the way they have handled the terrorist 
bombing against the Jewish cultural center or the embassy there 
recently is probably indicative of they are not as anti-Semitic 
as maybe other countries, and I applaud them for that is the 
reason I wanted to bring that out, in their efforts to find out 
about that bombing.
    So we will conclude, and pursuant to committee rule 7, the 
members of the subcommittee will be permitted to submit written 
statements to be included in the official record, and without 
objection the hearing record will remain open for five business 
days allowing statements, questions and extraneous materials 
for the record, subject to the length limitation in the rules. 
Also if we have any additional questions we will submit those 
to you and ask you to respond back and that will be made part 
of the record. So without any other business we will stand 
adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      


             

Prepared statement of the Honorable Alan S. Lowenthal, a Representative 
                in Congress from the State of California
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            

   Material submitted for the record by the Honorable Jeff Duncan, a 
   Representative in Congress from the State of South Carolina, and 
            chairman, Subcommittee on the Western Hemisphere
            
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<
                                 <all>
</pre></body></html>
